<html>
<title> - HOLOCAUST-ERA CLAIMS IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-551]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-551

                HOLOCAUST-ERA CLAIMS IN THE 21ST CENTURY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 20, 2012

                               __________

                          Serial No. J-112-82

                               __________

         Printed for the use of the Committee on the Judiciary






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>











                  U.S. GOVERNMENT PRINTING OFFICE

76-040                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director











                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Schumer, Hon. Chuck, a U.S. Senator from the State of New York...     3
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     6

                               WITNESSES

Bindenagel, J.D., Vice President for Community, Government, and 
  International Affairs, DePaul University, Chicago, Illinois....    15
Bretholz, Leo, Holocaust Survivor, Author of ``Leap into 
  Darkness,'' Baltimore, Maryland................................    10
Firestone, Renee, Holocaust Survivor, Los Angeles, California....    14
Nelson, Hon. Bill, a U.S. Senator from the State of Florida......     1
Rosenberg, Samuel L., Delegate, 41st District of Maryland, 
  Baltimore, Maryland............................................     8
Swaine, Edward T., Professor of Law, George Washington University 
  Law School, Washington, DC.....................................    12

                         QUESTIONS AND ANSWERS

Responses of Samuel Rosenberg to questions submitted by Senator 
  Sessions.......................................................    22
Responses of Edward Swaine to questions submitted by Senator 
  Sessions.......................................................    27

                       SUBMISSIONS FOR THE RECORD

AIA, Jewish Journal, South Florida, article......................    31
AVHO, June 18, 2012, ICHEIC statistics...........................    32
Balitzer, Alfred, Foundation for California, Long Beach, 
  California, June 24, 2012, letter..............................    33
Bet Tzedek, Los Angeles, California, June 18, 2012, letter.......    37
Bindenagel, J.D., Vice President for Community, Government, and 
  International Affairs, DePaul University, Chicago, Illinois
    statement....................................................    39
    DePaul University, June 22, 2012, letter.....................    48
Blumenfield, Bob, Assembly member, Fortieth District, Sacramento, 
  California, June 18, 2012, letter..............................    52
Bretholz, Leo, Holocaust Survivor, Author of ``Leap into 
  Darkness,'' Baltimore, Maryland................................    54
Congress of the United States, Washington, DC, Hon. Bill Nelson, 
  Senator; Hon. Marco Rubio, Senator; Dennis Ross, Member of 
  Congress; Debbie Wasserman Schultz, Member of Congress; Vern 
  Buchanan, Member of Congress, Thomas J. Rooney, Member of 
  Congress; Mario Diaz-Balart, Member of Congress; Ileana Ros-
  Lehtinen, Member of Congress; Ted Deutch, Member of Congress; 
  Allen B. West, Member of Congress; Frederica Wilson, Member of 
  Congress; David Rivera, Member of Congress; Gus Bilirakis, 
  Member of Congress, September 20, 2011, joint letter...........    60
CRIF, Richard Prasquier, President, Paris, France, May 31, 2012, 
  letter.........................................................    62
DePaul University College of Law, Chicago, Illinois, article.....    65
Department of State, Washington, DC:
    Davidson, Douglas, Special Envoy for Holocaust Issues, 
      statement..................................................    66
    fact sheet...................................................    69
Emsellem, Bernard, Senior Vice President, Paris, France, letter, 
  statement and attachment.......................................    70
Firestone, Renee, Holocaust Survivor, Los Angeles, California, 
  statement......................................................    87
Holocaust Survivors Foundation USA, David Schaecter, President:
    JTA - The Golobal News Service of the Jewish People, April 4, 
      2012, joint letter.........................................    97
    June 26, 2012, joint letter..................................   106
    David Harris, President, New York, New York, November 30, 
      2011, joint letter.........................................   113
Jewish Community Organizations Group, joint statement and 
  attachment.....................................................   119
Jewish Week, New York, December 27, 2011, article................   129
Kent, Roman, Treasurer, Conference on Jewish Material Claims 
  Against Germany, New York, New York, statement.................   133
Lantos, Annette, Washington, DC, statement.......................   145
Los Angeles Times, Los Angeles California, June 15, 2012, article   146
Neiman, Richard H., Superintendent of Banks, New York State 
  Banking Department, New York, New York, statement..............   148
New York Times International, June 2, 2011, article..............   157
Politico, POLITICO.com, June 20, 2012, article...................   159
Republican Jewish Coalition, Noah Silverman, Congressional 
  Affairs Director, Washington, DC, letters......................   161
Rosenberg, Samuel L., Delegate, 41st District of Maryland, 
  Baltimore, Maryland, statement.................................   165
SNCF Invoices....................................................   174
Swaine, Edward T., Professor of Law, George Washington University 
  Law School, Washington, DC, statement..........................   180

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government or 
  other criteria determined by the Committee, list:

    J.S. Bindenagel Additional Submissions
    New York Banking Department
    Executive Summary from 2011 HCOP Insurance Report

 
                HOLOCAUST-ERA CLAIMS IN THE 21ST CENTURY


                        WEDNESDAY, JUNE 20, 2012

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:39 p.m., in 
room S-115, The Capitol, Hon. Charles Schumer, presiding.
    Present: Senators Schumer, Klobuchar, Blumenthal, Grassley, 
and Sessions.
    Senator Schumer. The hearing will come to order, and I want 
to apologize in advance.
    We are going to have to keep order here, please. We are 
going to have to keep order and close the door, if need be.
    Anyway, I want to apologize to everybody. Because of all 
these votes 10 minutes apart, we had to move the hearing room 
from our usual Judiciary room to right here, and we are going 
to have to be skedaddling back and forth, unfortunately, to go 
upstairs and vote and come back. But it is a much quicker walk 
and will delay us a lot less.
    I have an opening statement which I will read, but again, 
because of how the votes are working, Senator Nelson, who is 
the spirit and the driving force to have this hearing and who 
has done such a good job on this issue, is going to make his 
opening statement before mine. Then I will make mine, and then 
we will call on the witnesses.
    Senator Nelson.

STATEMENT OF HON. BILL NELSON, A UNITED STATES SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Nelson. Mr. Chairman, thank you very much.
    The first thing I would like to insert in the record is an 
op-ed by Annette Lantos, who just came in, the widow of our 
former colleague, Tom Lantos, and it is directly on point. So I 
will give this to you, Mr. Chairman.
    Senator Schumer. And without objection, we will put the 
entire statement in the record.
    [The op-ed appears as a submission for the record.]
    Senator Nelson. I appreciate you calling this, and for the 
cramped quarters we apologize, but please understand this was 
the only room available here close to the Senate chamber, and 
the choice was either a postponing of the hearing or going 
ahead with it in this location because of the votes upstairs on 
the second floor.
    This issue is extremely important. It is compensating 
Holocaust survivors and their loved ones for the value of 
insurance policies they held before and during World War II. 
These policies, of course, and the insurance company records 
were lost, they said, stolen from them or destroyed by the Nazi 
regime. And so I am very grateful to Senator Schumer for 
calling this hearing, and I would note that I am a cosponsor of 
Senator Schumer's bill, which is the Holocaust Rail Justice 
Act, which is also the subject of today's hearing.
    Naturally, I come to the table, the two of us come to the 
table from two States that are two of the three States with the 
most Holocaust survivors. Of course, most of them are now in 
their 80's or 90's and in urgent need of assistance.
    Two survivors that are here today are constituents of mine. 
I want to recognize them: David Murmelstein from Miami and Jack 
Rubin from Boynton Beach. David and Jack, we first became 
friends when I was the elected insurance commissioner of 
Florida, and I had the occasion when it suddenly dawned on me 
that I had jurisdiction because some of those European 
insurance companies did business through subsidiaries in my 
State, and there that regulatory hook, we went to work. And, of 
course, Annette is here, and that is the article that I have 
submitted for the record.
    Now, I want to introduce Renee Firestone. She will testify 
regarding this legislation. It is an issue that Senator 
Feinstein and I agree, which Senator Feinstein has graciously 
allowed me to introduce her constituent, Renee.
    Renee was born in Czechoslovakia and at age 19 was taken to 
Auschwitz. Of her family, only Renee and her brother Frank 
managed to survive the war. And like many survivors, after the 
war Renee immigrated to the U.S. with a husband and an infant 
daughter. They settled in Los Angeles. She quickly dedicated 
herself to social justice and Holocaust remembrance and the 
education of her country. Her commitment to justice earned 
Renee many distinguished awards, including the Elie Wiesel 
Holocaust Remembrance Medal and the Golda Meir Award. Renee's 
compelling life work was featured in the Steven Spielberg film 
``The Last Days.''
    The Judiciary Committee hearing today gives the Senate 
another opportunity to examine what has been done to help 
survivors like Renee and the others that I have introduced from 
Florida.
    Members of this Committee will review the efforts to 
compensate Holocaust victims for the value of their insurance 
assets, and many feel that these efforts have been delayed, 
flawed, and insufficient. And as a former insurance 
commissioner who had to deal with those European companies, I 
can tell you I know all the tricks, and they have employed all 
of them.
    The International Commission on Holocaust Era Insurance 
Claims concluded in 2007 and left many of the claimants 
dissatisfied or undercompensated, and many continue to feel 
that some of the insurance companies that participated in the 
commission still have not done enough to compensate Holocaust 
survivors. And that is why I introduced this legislation that 
creates a new Federal cause of action that enables survivors to 
sue these companies in Federal court for damages and attorneys' 
fees for compensation for their insurance policies. And with 
ICHEIC's disbandment, the court system represents one of the 
few remaining avenues by which Holocaust victims and their 
survivors may still pursue their legal rights.
    We all know that no amount of financial compensation can 
ever make up for the wrong of the Holocaust, but many of us who 
have been working on this issue for years are committed to 
doing what we can to help those survivors recover whatever we 
can that has been taken from them.
    I have always believed that people who are wronged are 
entitled to seek justice. I remain committed to advocating for 
the compensation for them, and that is why serving Florida's 
Holocaust survivor community has been a clear top priority of 
mine in my years in public service.
    Mr. Chairman, I want to thank you for the privilege of 
letting me come here and kick this hearing off.
    Mr. Chairman, I have heard every excuse in the world on, 
``Well, we lost the policies,'' or ``They have already claimed 
their assets,'' or ``Well, show us proof of death.'' The last 
time I checked, Hitler did not keep any of those records. I 
have heard all the excuses, and it is time for us to do justice 
for these people.
    Senator Schumer. Well, let me thank you. Senator Nelson, 
you have been a true leader on this issue.
    Senator Nelson is one of our most effective Senators. He is 
a real fighter for things he believes in, and I know he 
believes in this. As I said, it was at his request that we had 
this hearing and joined our two proposals in the hearing. And I 
can tell people who are seeking justice that they could not 
have a better advocate than Senator Nelson.
    Thank you.
    [Applause.]

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Schumer. Now I am going to give my opening 
statement, and first I want to start by thanking our Chairman, 
Chairman Leahy, for letting me have the gavel today in order to 
explore this exceptionally important topic: how to resolve what 
I hope, what we all hope are among the last remaining 
reparation claims stemming from the murder of 6 million Jews 
during the Holocaust. We all know the horror of the Holocaust. 
My great-grandmother, who was the matriarch of her family, was 
told to leave her home. She and her family had gathered on the 
front porch. They refused to leave, and they just machine-
gunned all of them down in 1941. So, obviously, I have personal 
experience with the horrors of the Holocaust, but the horrors 
are just awful.
    Sometimes we refer to the horror as ``unspeakable.'' But 
unspeakable is exactly what the Holocaust must never become. 
Those who perpetrated it, those who benefited from it want us 
not to speak. But we are here to speak and to have this 
hearing.
    Now, we must continue to find words to describe if not 
explain what happened during those very dark years of human 
history. We must make sure the stories of the survivors and the 
witnesses who have gone before us live on and become part of 
our human DNA. We must ensure that we listen to those who are 
still with us, and at the least, the very least, it is our 
collective moral obligation to make sure that those whose lives 
were forever changed by the Holocaust are not forgotten.
    As the survivors among us grow old, too many are sinking 
into poverty and neglect. In fact, the numbers are shocking and 
will surprise people who have not studied the issue.
    The Jewish Claims Conference reports in 2010 that of the 
517,000 living Holocaust survivors in the world, half live in 
poverty. That is disgraceful. Most of these now elderly 
survivors live in the former Soviet Union and in Israel. Many 
survivors who are eking by nonetheless need nursing care and 
other services that can be impossibly expensive.
    I am certain that everyone in this room agrees on one 
thing: that we need to do everything in our collective power to 
make sure that these survivors, these resilient, brave people, 
our dear friends and family, do not fall through the cracks. 
International efforts to hold accountable the perpetrators and 
accomplices of this terrible crime have been a very important 
part of giving the Holocaust survivors some modicum of peace 
and well-being.
    The two bills we will discuss today arise from the desire 
to ensure that survivors can get an approximation of justice, 
and we can only call it an approximation, and not even a close 
one, because nothing will ever make this right or make them 
whole. They all live with the memories. They all live with the 
holes in their hearts of loved ones who perished.
    The first of our two bills is the Holocaust Rail Justice 
Act. Today is the first hearing that has been held on this bill 
in the U.S. Senate, and I am pleased to have the opportunity to 
talk about it. Here is the relevant history.
    During World War II, more than 76,000 Jews and thousands of 
other so-called undesirables were transported from France to 
Nazi death camps aboard trains owned and operated by the 
Societe Nationale des Chemins de Fer Francais, the SNCF. Fewer 
than 3 percent of those deported or those who boarded those 
awful trains survived. Many did not survive the train ride 
itself. And that train, which was operated independently by 
SNCF, having entered into an agreement with the German 
Government to maintain control of its trains was itself a 
horror.
    A report commissioned by SNCF found that SNCF alone decided 
to use cattle cars to transport victims, refused to provide 
food or water despite the pleas of Red Cross workers.
    In a tragic example of irony, something worthy of Dickens' 
``Bleak House,'' SNCF escaped legal liability for its actions 
in France by claiming it was a commercial entity and could not 
be sued in French administrative court. Meanwhile, in the U.S. 
SNCF escaped liability by arguing it was an instrumentality of 
the French Government and, therefore, entitled to sovereign 
immunity. They were one thing in one place, the opposite in 
another place, all to escape liability.
    Just recently, 70 years after deportations began, SNCF 
expressed regret for its deportations. But as we will hear from 
witnesses today, that must only be the beginning. It has never 
paid for its actions. Never. Even if the French Government's 
reparation programs could somehow be said to cover SNCF's 
actions--and I believe they cannot--those programs are, 
arguably, closed to Americans or at least highly inaccessible.
    The Holocaust Rail Justice Act would make clear that SNCF 
cannot claim sovereign immunity for its independent actions 
against the Jews and other deportees and would allow SNCF to be 
sued in U.S. courts. At this point, opening up the U.S. courts 
may be the only way that survivors can obtain the reparations 
they so clearly deserve from SNCF.
    I want to note here that this bill is intended only to 
cover SNCF, which was not a party to any Holocaust litigation 
settlement entered into by the United States. The bill is not 
intended to allow claims against any companies that are covered 
by the U.S.-German Holocaust Settlement Agreement or any other 
settlement agreement, and we are redrafting the bill to reflect 
that so we can make sure that the bill is effective and not 
litigated against.
    Now, the second bill that will be considered is Senator 
Nelson's bill. It is called the Restoration of Legal Rights for 
Claimants under Holocaust-Era Insurance Policies Act of 2011, 
and as Senator Nelson talked about, the purpose of this bill is 
to allow survivors and heirs who believe that they may have 
claims against European insurers because of unpaid policies 
from the Holocaust to sue those insurers in U.S. courts. 
Several factors have led to substantial debate about this bill.
    First, the assets of many if not almost all European 
insurers were nationalized by the Nazis, the Soviets, or both. 
For the most part, the hundreds of small insurance companies 
that existed before the war either collapsed during the 
economic crisis of the 1930s or ceased to exist during the war. 
Many, many records were lost forever.
    Second, in 1998, the National Association of Insurance 
Commissioners, six remaining European insurers, the Claims 
Conference, the World Jewish Restitution Organization, and the 
State of Israel signed a memo of understanding that became 
known as ICHEIC. In addition, the Department of State under 
both Clinton and Bush administrations and now under the Obama 
administration have supported ICHEIC in court as the exclusive 
forum for resolving these particular Holocaust-era claims. 
Numerous Jewish groups, including B'nai B'rith International, 
the Anti-Defamation League, and the American Jewish Committee, 
also support ICHEIC as the acceptable forum for resolving the 
70-year-old policy insurance claims.
    ICHEIC eventually paid out $300 million to 47,353 
claimants, over 34,000 of whom were awarded $1,000 humanitarian 
payments because no issuing company could be identified from 
the remaining records. Some survivors were left extremely 
dissatisfied with this process and remain concerned that, put 
simply, too few claims were honored. They have argued in court 
and here in Congress that the State Department had no authority 
to effectively settle these claims on their behalf, and they 
want their day in court. They have asserted that these insurers 
have not been forthcoming with their records or assets, and we 
are going to hear and bring to light important testimony on 
these issues of critical importance to the survivor community. 
And I am pleased to welcome everyone here to participate in the 
discussion.
    I share the survivors' goal: to make sure that remaining 
survivors are not left destitute, are respected, and have 
access to the records, resources, and justice that they are, 
frankly, entitled to. It is the very least we can do.
    And so with that, let me call on Senator Sessions if he 
would like to make a statement. And while Senator Sessions 
speaks, I am going to go up and vote and come right back down, 
and then you can go up and vote. And if Senator Sessions 
finishes, we will recess until I come back.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Chuck would be perfectly happy if I 
missed the vote. [Laughter.]
    But he is not going to miss it. You can be sure of that. I 
know he works hard, but I can usually get to the gym a little 
before he does in the morning. He is a hard worker, I can tell 
you that.
    I would just say that I am looking forward to learning more 
about this issue. I got involved with the Japanese World War II 
prisoners of war and the abuses there and the litigation 
attempts over that. We engaged the State Department and tried 
to figure out what the principles are in these kind of cases, 
and as a former United States Attorney for 12 years, I just 
have some sense that we need to be sure we are doing this 
right. Even though people deeply feel they are wronged, I think 
it is perfectly healthy and good to bring out what happened, 
put the facts on the table, and let us not be timid about 
knowing the truth, and then we will ask ourselves what the 
proper legal remedies are and how it should be handled. You 
have to acknowledge that there are wars and settlements of wars 
all over the world, and it is hard to settle if decades later 
people are still litigating over it.
    So I do not know what the right answer is, frankly, but I 
respect Chuck. He is a very good lawyer and sophisticated in 
these issues, and I look forward to working through the 
hearing.
    I guess I will take my moment and go vote, and I look 
forward to coming back and hearing the comments of the 
witnesses as we go forward. Thank you.
    [Recess at 3 to 3:03 p.m.]
    Senator Grassley. This is a terrible environment in which 
to hold a hearing, meaning not the environment of this room but 
the fact that we have votes upstairs and it is not very well 
organized. It is no fault of this Committee or the Chairman or 
anybody else.
    I am glad that we are able to work together on this hearing 
between the Chairman and this side of the aisle. I am also glad 
for all the witnesses that have been able to come and that we 
had consensus on that. And I appreciate the witnesses' sharing 
their experiences and perspectives with us. I am very 
interested in hearing--now I will have to read the testimony.
    Let me ask each of you, if you would--these are very 
general questions. I hope you appreciate that. And I do not 
suppose all of you would have to respond, but if a few of you 
would respond, I would appreciate it.
    Is there anything beyond your written testimony or beyond 
what has already been given in the Committee that I have not 
heard yet, but I would like to give each of you an opportunity 
to expand on anything that has not been said that you would 
like to expand upon? I am not calling on a specific person, but 
maybe you did not get a chance to give your view.
    Mr. Rosenberg. We have not given our testimony yet.
    Senator Grassley. OK. Well, what happened in the last half-
hour? [Laughter.]
    Mr. Rosenberg. We were waiting.
    Senator Grassley. You go ahead.
    Mr. Rosenberg. We were waiting for----
    Senator Grassley. Is it OK if he starts to give his 
testimony?
    Staff. Absolutely, unless you would like to read the 
introductions.
    Senator Grassley. Well, if they have not been introduced 
yet, yes.
    The Honorable Samuel Rosenberg, Delegate, 41st District of 
Maryland, has been a member of the Maryland House of Delegates 
since 1983 and currently serves as Vice Chair of their Ways and 
Means Committee. Delegate Rosenberg has created programs 
encouraging students to enter public service and help extend 
Maryland's civil rights laws. Among his many significant 
legislative accomplishments, last year Delegate Rosenberg's 
landmark legislation passed unanimously and was passed into 
law. Governor O'Malley signed it in May 2011. This bill 
requires any entity pursuing publicly funded rail contracts to 
disclose participation in transporting victims to Nazi death 
camps during the Holocaust and to post all records online.
    Leo Bretholz is a survivor and SNCF victim. He lived in 
Vienna until he was forced to flee in 1938. He spent the next 7 
years running from the Nazi regime. In 1947, he arrived in the 
United States where he married and raised a family. In 1998, he 
co-authored a book chronicling his experiences during the 
Holocaust entitled ``Leap into Darkness: Seven Years on the Run 
in Wartime Europe.'' The title references the evening he leapt 
to freedom from a moving SNCF train bound for Auschwitz. He 
frequently lectures at schools, universities, synagogues, 
churches, and various groups.
    Professor Edward Swaine teaches and writes in the area of 
public international law, foreign relations, international 
antitrust, and contracts. Professor Swaine joined the George 
Washington University Law School faculty in 2006 after serving 
for one year as a counselor on international law at the 
Department of State. At GW he is a member of the Executive 
Council of the American Society of International Law, co-chairs 
the international law and domestic interest groups, and is a 
member of the Advisory Committee on Public International Law of 
the U.S. State Department.
    If you will continue, please?
    Senator Schumer. It would be my pleasure, and I want to 
thank my good friend Senator Grassley for stepping in and doing 
the introductions. We are up to Ms. Firestone.
    Senator Grassley. Yes. I just read the first page.
    Senator Schumer. OK. At the age of 19, Ms. Firestone was 
imprisoned for 13 months in Auschwitz-Birkenau. In 1948, she 
arrived in the United States with her family where she became a 
noted fashion designer. She is a tireless leader in many areas 
of social justice and Holocaust remembrance and education. She 
has conducted workshops for educators, lectured, and has been 
the subject of countless interviews regarding the Holocaust and 
its contemporary implications. We are honored you are here, Ms. 
Firestone.
    And, finally, Ambassador Bindenagel served as the U.S. 
Special Envoy for Holocaust Issues from 1998 to 2002. He 
previously has testified at congressional hearings on the 
negotiation and implementation of the agreement regarding the 
International Commission on Holocaust Era Insurance Claims, 
ICHEIC. Ambassador Bindenagel played a prominent role 
representing the U.S. Government negotiations that led to the 
creation of Foundation Remembrance, Responsibility, and Future 
in Germany as part of the 2001 U.S.-German Holocaust 
settlement. For the last 7 years, he served as vice president 
at DePaul University in Chicago.
    We welcome all of you. Your entire statements will be read 
into the record, your full statements. We ask each of you to 
limit your statements to 5 minutes, particularly because of the 
unusual and rather warm circumstances in this room. So we will 
start from my left and work our way over. First, Honorable 
Samuel Rosenberg. Welcome, Mr. Rosenberg.

STATEMENT OF THE HONORABLE SAMUEL L. ROSENBERG, DELEGATE, 41ST 
  DISTRICT OF MARYLAND, STATE OF MARYLAND, BALTIMORE, MARYLAND

    Mr. Rosenberg. Thank you very much. Senator Schumer, 
Senator Grassley, Senator Sessions, thank you for the 
opportunity to express support for the Holocaust Rail Justice 
Act and share my efforts for Maryland to require transparency 
from SNCF. Senator Schumer, your tireless fight to provide 
these survivors their day in court is remarkable.
    I also applaud those who support this legislation in the 
House and the Senate, including the many members of the 
Maryland congressional delegation. With the increasing number 
of bipartisan supporters, including Majority Leader Reid, 
Foreign Relations Committee Chairman Kerry, Senator Nelson, and 
Senator Rubio, I am confident that this Congress will provide 
the victims with their long-awaited day in court.
    After SNCF's related companies sought to bid on a Maryland 
commuter rail contract, I was stunned to learn about the 
company's actions during the Holocaust and its ongoing 
mistreatment of my constituents. SNCF's blatant refusal to 
fully acknowledge its role in the Holocaust led me and my 
colleagues in Annapolis to pass legislation requiring 
transparency.
    Until recently, SNCF refused to acknowledge its role in the 
Holocaust. Today, SNCF does not deny sending 76,000 Jews and 
thousands of others, including 11,000 children, to their 
deaths. Yet the company refuses to take responsibility.
    SNCF willingly collaborated with the Nazis and retained 
control of the technical conditions of the deportations which 
ultimately led to those deaths. SNCF hides behind foreign 
sovereign immunity, as Senator Schumer pointed out, claiming it 
should not be held accounts in U.S. court. The company has 
neither paid reparations to its victims nor to existing French 
reparations programs which do not specifically cover the SNCF 
deportations.
    SNCF's actions during World War II were unconscionable and 
unforgivable. The company's ongoing mistreatment of its victims 
makes clear that these are no longer the sins of SNCF's 
fathers. The company is engaged in an extensive PR campaign to 
downplay its role in the Holocaust and stem the growing tide of 
opposition standing between the company and lucrative 
contracts.
    In 2010, the company issued its first apology. The Los 
Angeles Times editorial board said it best, noting that the 
apology was ``apparently not prompted by regret. Rather, it 
seems to have been spurred by the company's desire to win 
multibillion dollar high-speed rail contracts in California and 
Florida.''
    I am proud that my State, California, and Florida have all 
taken a stand on this issue. As Florida contemplated 
undertaking a $2.6 billion high-speed rail project, the company 
sought to underwrite a partnership between the Shoah Memorial 
of France and Florida's Task Force on Holocaust Education. 
Survivors were outraged by the company's attempt to influence 
Holocaust education. I would like to enter into the record a 
letter written by roughly half of the Florida delegation to 
Florida's Commissioner of Education stating that ``[i]nstead of 
attempting to engage in a public relations campaign, SNCF would 
be wise to resolve the claims of the Holocaust survivors as a 
consequence of their actions.''
    Senator Schumer. Without objection, the letter will be 
added to the record.
    Mr. Rosenberg. Thank you.
    [The letter appears as a submission for the record.]
    Mr. Rosenberg. The Florida Education Commissioner 
ultimately, and rightfully, canceled the partnership.
    When SNCF sought to bid on public contracts, California 
Assemblymember Blumenfield and I each introduced legislation to 
ensure that our constituents would know the character of the 
companies seeking tax dollars. Maryland's law requires 
companies seeking to bid on MARC contracts to digitize and post 
online relevant Holocaust-era archives.
    True to form, after the Maryland legislation was signed 
into law, the company released documents to three Holocaust 
museums and issued a press release boasting of its proactive 
new phase of transparency while failing to mention the law's 
requirements.
    The Maryland legislation should provide transparency, but 
that is not enough. For over 10 years, SNCF has escaped 
responsibility in the courts arguing one way, and then the 
other as Senator Schumer pointed out.
    I am certain, if I may close on a personal note, that 
Telford Taylor, my constitutional law professor at Columbia and 
chief prosecutor for the Nuremberg War Crimes Tribunal, would 
be immensely proud of our work. I recently returned from a 
visit to Yad Vashem where I viewed a film of individuals about 
to be executed by a Nazi firing squad. While it is too late for 
those victims to seek justice, the approximation of justice, it 
is not too late for SNCF's victims like Leo Bretholz, my friend 
and constituent.
    While SNCF tries to run out the clock on the survivors, we 
must all stand up--on the local, State, and Federal levels--and 
together demand that the company finally be held accountable.
    Thank you.
    [The prepared statement of Mr. Rosenberg appears as a 
submission for the record.]
    Senator Schumer. Thank you, Mr. Rosenberg, for your service 
in Maryland, and thank you for staying within the time limit.
    We will next hear from Mr. Bretholz. Welcome.

STATEMENT OF LEO BRETHOLZ, HOLOCAUST SURVIVOR, AUTHOR OF ``LEAP 
              INTO DARKNESS,'' BALTIMORE, MARYLAND

    Mr. Bretholz. Thank you. I just want you to know, if you 
know----
    Senator Schumer. If you could just pull the microphone a 
little closer, that would be great, Mr. Bretholz.
    Mr. Bretholz. If you know some of my story, I escaped from 
trains and crossed rivers and crossed the Alps, but to come to 
this room to find this room was another experience. [Laughter.]
    I just want you to know.
    Senator Sessions, Ranking Member Grassley, Senator Schumer, 
and members of the Committee, my name is Leo Bretholz. I am a 
Holocaust survivor. After World War II, I immigrated to the 
United States and settled in Baltimore. I am 98--sorry. That 
will be one time. I am 91 years of age and speak regularly 
about my experiences during the Holocaust.
    Thank you for the opportunity to testify about the 
atrocities that I experienced at the hands of the French rail 
company SNCF. Thank you especially, Senator Schumer--and 
Senator Cardin is not here, he was supposed to be, and my 
Senator from Maryland, Senator Mikulski, who are very 
supportive of all of this, and the other members of the 
Maryland congressional delegation, and the many legislators who 
have made certain that I and SNCF's other victims are not 
forgotten.
    Senator Schumer, thank you particularly for holding this 
hearing today and for your unwavering pursuit of justice for 
the survivors. Many thanks.
    This year marks the 70th anniversary of the first SNCF 
transports from Drancy--a transit camp north of Paris--toward 
death camps, yet I still remember the haunting night I jumped 
from an SNCF train bound for Auschwitz as if it was yesterday. 
Ladies and gentlemen, this was the 6th of November 1942, and if 
it were not for that day, I would not be sitting here.
    In October 1942, at the age of 21, I ended up near Paris in 
the internment camp Drancy. We called it the ``antechamber of 
Auschwitz.'' The train to Auschwitz was owned and operated by 
SNCF. They were paid per head and per kilometer to transport 
innocent victims across France and ultimately to the death 
camps. They collaborated willingly with the Germans. Here I 
have a copy of an invoice sent by SNCF seeking to be paid for 
the services they provided. A money matter. SNCF pursued 
payment on this bill after the liberation of Paris, after the 
Nazis were gone. This was not coercion. This was business. I 
would like to submit this invoice for the record. I think you 
have that.
    Senator Schumer. Without objection, yes. Definitely.
    [The invoice appears as a submission for the record.]
    Mr. Bretholz. SNCF deported 76,000 Jews on those trains, 
including over 11,000 children. They would count us off, 50 
into each cattle car. Now, this was all done with precision, 
with deception, and with cruelty, as an aside. They were 
counted off, 50 into each cattle car and the 51st person was 
the young boy that belonged to that family. The boy began to 
scream, and the father pleaded to allow them to stay together. 
But with cold precision, the boy was shoved in one car, his 
family into another. I believe that was the last time they saw 
each other.
    For the entire journey, SNCF provided us one piece of 
triangle cheese--you know, Laughing Cow--one stale piece of 
bread, and no water for the entire trip. There was hardly room 
to stand or sit or squat in the cattle car. And there was one 
bucket in the car to relieve ourselves for 50 people. Visualize 
this. Within that cattle car, people were sitting and standing 
and praying and weeping and arguing and fighting--the whole 
gamut of human emotions. My friend Manfred who was with me, 
also a Viennese fellow, and I began to try to escape. Many in 
the cattle car fearing the guards would punish everyone if we 
were found out, urged us not to even try. I also was beginning 
to doubt our plan when an elderly woman on crutches spoke out. 
She wielded that crutch like a weapon and pointed it at me and 
said, ``You must do it.'' A woman on crutches. ``If you get 
out,'' she said, ``maybe you can tell the story. Who else will 
tell the story? '' I can still see her face today. An elderly 
woman.
    Manfred and I set out to pry apart the bars on the windows. 
First we tried belts. They slipped off. Then someone suggested 
we dip our sweaters into the human waste on the bottom of the 
car. There was all around human waste. We kept twisting the wet 
sweaters tighter and tighter like a wet tourniquet. The human 
waste dripped down our arms. We kept going for hours with our 
rolled-up shirt sleeves. Kept going for hours. We kept going 
for hours until finally there was just enough room for us to 
squeeze through. I went first. My friend Manfred helped me 
climb out of the tiny window, and I stood on the coupling 
between the two cars. He followed me and we held on tight so as 
not to slip and fall beneath the train and waited for it to 
take a curve where it would slow down. Then we jumped to our 
freedom in eastern France.
    Of the 1,000 people with me on the SNCF convoy number 42--
there were over 70 convoys; this was number 42--on the 6th of 
November 1942, only five survived the war of the 1,000. If I 
had not jumped from that train, I would not be here today. It 
is my duty to speak for those who did not survive--for the old 
woman who pushed us to escape, for my family, and for the 
millions of others who were silenced.
    SNCF willingly collaborated with the Nazis. Had the company 
resisted, even to a small degree, or had they not imposed those 
horrific conditions, many lives would have been saved. In the 
almost 70 years since the end of the war, SNCF has paid no 
reparations nor been held accountable. The company did not even 
apologize until 2010 when it was criticized for pursuing high-
speed rail in the United States without fully accounting for 
its role in the Holocaust. As it was during the Holocaust for 
SNCF, so it is now--all about money. They made money shipping 
people, and they wanted to make money building railroads.
    The Holocaust Rail Justice Act is the last opportunity we 
will have to see justice and our day in court within our 
lifetimes. The survivors seek only to have our day in court for 
the first time. Seventy years is far too long to wait for a 
company to accept responsibility for the death and suffering it 
caused. I urge you please to pass the Holocaust Rail Justice 
Act this Congress before it is too late.
    Thank you very much.
    [The prepared statement of Mr. Bretholz appears as a 
submission for the record.]
    Senator Schumer. Thank you for your ever so powerful 
testimony, Mr. Bretholz. Thank you for your courage as well.
    Professor Swaine.

    STATEMENT OF EDWARD T. SWAINE, PROFESSOR OF LAW, GEORGE 
       WASHINGTON UNIVERSITY LAW SCHOOL, WASHINGTON, D.C.

    Mr. Swaine. Senator Nelson, Senator Schumer, thank you for 
the opportunity to testify about the international law 
implications of the Holocaust Rail Justice Act. I am honored 
and moved to be in the presence of Holocaust survivors and 
others who advocate on their behalf.
    I am speaking about a different aspect of this important 
issue, but I would stress the room for agreement here. All 
would agree that, irrespective of liability and immunity 
issues, justice for the victims of Holocaust deportations, 
given these deeply disturbing claims, is imperative, and 
attention by political bodies in the U.S., France, and 
elsewhere is welcome.
    There should also be agreement that international law plays 
a role, most importantly, the human rights articulated in the 
wake of the Holocaust, but also respect for international 
institutions and for other international principles such as 
State responsibility, the obligation to make reparations, and 
any applicable immunity. Ultimately we should advance according 
to the rule of law.
    As I explained in my submission, Congress designed the 
Foreign Sovereign Immunities Act with a view to what 
international law permitted. These standards protect the U.S. 
Government as well. My objective is to describe these 
parameters and to try to find constructive solutions.
    The International Court of Justice recently provided 
guidance in a case involving crimes committed during Germany's 
occupation of Italy. The court held that Italian suits against 
Germany were barred by customary international law principles 
of sovereign immunity, which also bind the United States.
    Those facts were different than those here. The wrongs were 
by the German military, not a state-owned entity like a 
railroad, and judicial proceedings were conducted in Italy 
where the wrongs were committed. But some of the court's 
principles translate.
    For example, the court held it was required to apply the 
modern law of sovereign immunity, not the law as of when the 
wrongs occurred, since immunity concerns the judicial 
proceedings that occur in the present day.
    The court also held that immunity for sovereign acts 
applies regardless of the nature of the underlying 
international wrongs, no matter how terrible they are. These 
holdings express the traditional view, which is also how our 
courts have previously understood the Foreign Sovereign 
Immunities Act.
    Applying our Foreign Sovereign Immunities Act, courts have 
dismissed claims against the French national railroad on the 
reasoning--that I simply report--that SNCF is part of a foreign 
state and that no exceptions apply. The restrictive theory 
immunity allows suits to be brought based on a foreign state's 
commercial activities, but claims have to be brought under the 
present law based on activity in the United States or otherwise 
satisfy a geographic nexus.
    The bill would change this result in two ways. First, it 
focuses on the status of the railroads during World War II as 
opposed to today. Second, as to those railroads and those 
claims, it would remove any requirement of a U.S. connection.
    Based on my examination of the Act, I would say that U.S. 
law can be changed. The questions I address are how to develop 
law that can be effective while at the same time respecting our 
international law obligations.
    The bill's historical perspective is in some tension with 
the view expressed by the United States and by other courts 
that sovereign immunity focuses on the present. Sovereign 
immunity is not about whether a defendant thought it would be 
immune when it acted. No one--no one--should be confident when 
they act that they can commit international crimes. Rather, the 
topic of immunity concerns a sovereign state now and the burden 
of judicial proceedings in foreign courts. Doing what the bill 
suggests would, in my estimation, require additional 
safeguards.
    International law does seem to permit treating certain 
kinds of separate state entities distinctly. Perhaps the United 
States could argue that this present law, the present 
international law, permits applying this approach even to prior 
facts as they then existed. Even this, however, would not 
permit disregarding any proof that a state entity might offer 
that they were exercising sovereign authority. It is hard to 
avoid continuing litigation as to the scope of immunity while 
remaining consistent with international law. I do not 
presuppose anything about how that test would apply to the 
French railroad.
    The second solution, disregarding any U.S. connection, puts 
the bill at the frontier of attempts at universal jurisdiction. 
This is a controversial area. It is difficult to identify 
bright lines. But it is notable that the bill would combine 
this extraterritorial reach, which presents its own issue, with 
what appears to be at least a marginal encroachment on 
sovereign immunity. This makes the case harder in some respects 
than the case of Germany versus Italy. Again, we can discuss 
creative solutions which might include focusing on U.S. events 
or U.S. nationals.
    Any solution involves a dilemma. The bill is targeted, 
appropriately and reasonably, at a limited class of compelling 
claims during a limited period against a limited class of 
defendants. This helps reduce the potential for diplomatic 
objections. The difficulty is that targeting particular states 
and their immunities is a provocative and easily copied 
approach here and abroad, including in matters that might 
involve the U.S. Government. Ideally, the FSIA would be 
updated, if necessary, with a clear view as to how it applies 
to other cases, and articulate an international standard to 
which the United States itself would be willingly held. I am 
hopeful that this or some other solution may be reached.
    Thank you.
    [The prepared statement of Mr. Swaine appears as a 
submission for the record.]
    Senator Schumer. Thank you very much for your erudite 
testimony, Professor Swaine.
    We will now hear from Ms. Firestone.
    OK. There is a voting starting, Ms. Firestone. I am going 
to go vote while Senator Klobuchar and Senator Sessions are 
here, and then I will be back down. So we will not have to 
interrupt the hearing.
    Ms. Firestone, you may proceed.

STATEMENT OF RENEE FIRESTONE, HOLOCAUST SURVIVOR, LOS ANGELES, 
                           CALIFORNIA

    Ms. Firestone. Dear Chairman Schumer and members of the 
Committee, thank you for inviting me to present a voice in 
support of Senate bill 466. I come before you as an individual, 
but I speak on behalf of all survivors and the millions whose 
voices will never be heard.
    My name is Renee Firestone. I am an Auschwitz survivor. I 
would like to address a serious situation still plaguing the 
survivors.
    For years, we have been trying in vain to collect on 
insurance policies issued to our families prior to World War II 
and which remain to date largely unpaid. When we tried to make 
our claim to the insurance companies, they had the audacity to 
tell us that we needed original documents or we were asked for 
death certificates of the people to whom policies were issued. 
Were they really insane? Did these insurance companies really 
believe that after the Nazis stripped us of our families, our 
rights, our possessions, our dignity, even the hair on our 
heads, that they were standing at the door of the gas chambers, 
where they murdered my mother, handing out death certificates 
proving their crime?
    This insult would have been bad enough, but we survivors, 
now American citizens, many of whom after emerging from the 
depths of Hell, came here and served in the American military, 
are being deprived by our own Government of our constitutional 
right to seek redress from the courts and claim what is 
rightfully ours.
    You can never know, Mr. Chairman, just how painful and re-
traumatizing that is to us survivors. I hear weekly from many 
of my fellow survivors how hurt and outraged they are that this 
is happening to them. In fact, their frustration finally 
reached the breaking point, and over the last 2 weeks, hundreds 
of survivors and their families, family members, and supporters 
signed petitions, the majority of which were from New York and 
California. Signers include a Nobel Laureate and his wife, a 
well-known medical researcher, and the petitions have gone to 
other Members of Congress as well as to the media. They want 
the world to know that injustice has been heaped on them.
    In spite of what was promised by ICHEIC, Allianz, Generali, 
Exa, and others who are the sole repositories of the proof of 
these policies never released the full list of the insured. In 
my case, I was told that my father's name was not found. 
However, my first cousin, Fred Jackson, was the first survivor 
who applied to ICHEIC and collected from Generali because he 
was lucky enough to find some papers in his house on his return 
from the death camp. Fred's mother was my father's sister. We 
lived in the same town where my father built our beautiful 
villa, which is still there, and where he had a successful 
business in the main center of our town.
    My father was the oldest sibling and adviser to the whole 
family. He and my aunt were very close. There is no way that my 
aunt had insurance and my father did not. Why would he advise 
others to get insurance and not get it for himself and for his 
family?
    All we are asking for is to have our rights restored 
through Senate bill 466 and to be able to seek the aid of our 
court system to enforce our claims under these insurance 
policies. We are not beggars or greedy, as some call us. Our 
families paid for these policies with the sweat of their brows, 
and now we only want what is rightfully ours.
    Shamefully, many Jewish organizations stand in opposition 
to the will of the survivors and the passage of Senate bill 
466. How obscene and repugnant that our own people would deny 
the rights of the survivors and how painful. Where were these 
same organizations when we and our parents, brothers, sisters, 
and friends were being murdered? Did they come to our aid? How 
dare they now oppose us.
    I wish that my dear friend Congressman Tom Lantos, the 
original champion of this bill, would be here with us today. I 
know his lovely wife, Annette, is here, and I want her to know 
how grateful I am to both of them.
    Again, I am here today to ask this honorable Committee to 
support Senate bill 466 and ensure its swift implementation 
while some survivors are still alive. We are in our 80s and 90s 
now. Half of all the survivors in this country are destitute. 
Mr. Chairman, time is of the essence in order to serve justice 
and preserve the dignity of the remaining survivors in our 
final hours.
    I thank the Chairman and the members of the honorable 
Committee for your time and for giving me an opportunity to be 
heard. Thank you.
    [The prepared statement of Ms. Firestone appears as a 
submission for the record.]
    Senator Klobuchar [presiding]. Thank you.
    Mr. Bindenagel.

STATEMENT OF THE HONORABLE J.D. BINDENAGEL, VICE PRESIDENT FOR 
   COMMUNITY, GOVERNMENT, AND INTERNATIONAL AFFAIRS, DEPAUL 
                 UNIVERSITY, CHICAGO, ILLINOIS

    Mr. Bindenagel. Thank you, Mr. Chairman and members of the 
Committee. I am J.D. Bindenagel, the former Special Envoy for 
Holocaust Issues, and it is humbling to be among Holocaust 
survivors, Annette Lantos and others. I would also like to 
acknowledge that there are two others who are here with me 
today: Max Liebman is a Holocaust survivor, and he is 
accompanied by Menachem Rosensaft, a vice president of the 
American Gathering of Holocaust Survivors.
    I have been asked to review what the efforts of the 
International Commission on Holocaust Era Insurance Claims were 
regarding unpaid insurance claims from World War II and the 
Nazi period. That acronym, as Senator Schumer----
    Senator Schumer [presiding]. Could I just interrupt you, 
Ambassador Bindenagel.
    Mr. Bindenagel. Yes, sir.
    Senator Schumer. Senator Klobuchar is very interested and 
has been a great supporter on this issue, but she has to go up 
and vote. So I wanted to----
    Senator Klobuchar. Thank you.
    Mr. Bindenagel. Quite understood. Thank you very much.
    Senator Schumer. We are joined now by Senator Blumenthal, 
another supporter. Please proceed.
    Mr. Bindenagel. Thank you, Mr. Chairman.
    As a reviewer of the efforts of ICHEIC, I would like to 
start off by noting that the overarching interest of ICHEIC 
negotiations was to bring some measure of justice to Holocaust 
survivors and other victims of the Nazi era through 
compensation, where appropriate, but also information where 
available. We set out, as Senator Schumer noted earlier, 
concerned parties, governments, nongovernmental organizations, 
to resolve Holocaust-era insurance claims through dialogue, 
through negotiation and cooperation rather than subject victims 
and their families to the prolonged uncertainty and delay that 
would accompany litigation against the industry.
    U.S. regulators and European companies and the Holocaust 
survivor representatives created ICHEIC in 1998 and established 
policies and processes to identify claimants, locate unpaid 
insurance policies, assist Holocaust survivors and their 
families in resolving claims.
    Survivors and their heirs were able to submit inquiries and 
claims to insurers and partner entities at no cost and in their 
native language. ICHEIC, in close cooperation with 75 European 
insurance companies and a number of partner entities, resolved 
more than 90,000 claims. In short, the ICHEIC process went to 
great lengths to be claims-driven, claimant-friendly, and 
included vocal advocates of the claimant community. One only 
had to file a claim and specify the name and home town of the 
victim. No lawyers were needed to file a claim, and there was 
no cost to the claimant in the process.
    Claimants could then, and now can, also access the website 
where there appear more than 550,000 names and a list of likely 
policy holders, regardless of whether they were outstanding or 
compensated in the past, in search of a deceased relative who 
also was a Nazi victim. Moreover, virtually all significant 
insurers of Holocaust victims participated in this process.
    Of course, accepting that ICHEIC was not and could not be 
perfect, especially given the loss of information during and 
after World War II, some key numbers from ICHEIC will help 
summarize what was achieved regarding insurance claims. ICHEIC 
paid some 48,000 claimants out of the 90,000 claims that were 
analyzed, paying about $300 million. There are some more 
details in my submitted testimony.
    But more important is that ICHEIC as an organization ceased 
to function in 2007, and the most important development since 
then is the continuing commitment of all the companies that 
participated in ICHEIC to process claims under relaxed 
standards of proof. That is, despite the fact that ICHEIC has 
closed, anyone who believes that an ICHEIC insurance company 
has failed to pay a claim may send his application to the 
company or to the Holocaust Claims Processing Office of the New 
York State Banking Department of Financial Services and that 
claim will be analyzed. Methods of analysis are the same as 
they were under the operations of ICHEIC, and there is no 
charge to the claimant, and the relaxed standards of proof 
still apply.
    The German Insurance Association has continued to report--
and I have submitted their most recent report--on the 
statistics of continuing claims since ICHEIC was actually 
closed. They include 219 inquiries for insurance policies of 
Holocaust victims as of last Monday, June 18, 2012. One hundred 
and two policies were identified in those claims; 41 were 
eligible for compensation, and 61 have been previously paid. 
Some claims are still being reviewed.
    Mr. Chairman, the insurance companies' commitment to this 
ongoing process can be seen and can be tested by their 
continued outreach efforts, an example of which can be found in 
an advertisement they placed in the Washington Post on Monday, 
which is also attached to my statement.
    But at the same time, the fulfillment of the U.S. 
Government commitment to comprehensive and enduring legal 
peace, as set forth in the July 17, 2000, executive agreement 
is equally important to the continued resolution of outstanding 
claims, which, I will emphasize, were not extinguished by this 
agreement.
    The purpose of ICHEIC was to pay unpaid insurance claims 
and/or provide information on insurance policies so that 
victims of the Nazis could achieve some sort of measure of 
justice and some closure. ICHEIC itself was not designed or 
intended to address the ongoing social needs of survivors, many 
of whom live in poverty and deprivation, as you, Mr. Chairman, 
have noted.
    Significantly, in 2010, the German Government greatly 
increased funding to provide 110 million euros for Holocaust 
survivors' ``home care''. After some negotiations with the 
Conference on Jewish Material Claims Against Germany last year, 
a 3-year home care agreement was finalized and will provide for 
another 513 million euros, that is, $650 million for Holocaust 
survivors' home care.
    These agreements, which supplement the ICHEIC process, and 
other litigation settlements will provide another measure of 
support for Holocaust survivors. The ICHEIC process itself 
represented one of many ways the United States addressed and 
continues to address the plight of Holocaust survivors.
    With that, I would like to say thank you, Mr. Chairman, for 
the opportunity to speak to the committee.
    [The prepared statement of Mr. Bindenagel appears as a 
submission for the record.]
    Senator Schumer. Thank you, Ambassador. Your entire 
statement will be read into the record.
    Mr. Bindenagel. Thank you.
    Senator Schumer. Senator Blumenthal wants to say a few 
words, and he has been one of the big fighters for this in the 
Senate and always cares about issues of justice, so I would 
like to call on him for a second.
    Senator Blumenthal. Thank you, Senator Schumer, for the 
inspiration of your leadership, and thank you to all of the 
Holocaust survivors and their advocates who are here today. I 
view this hearing as tremendously and profoundly important. I 
am sorry that it is in the midst of a series of votes which may 
seem somewhat distracting, but I would just like to assure 
everyone who is here that the ultimate issue commands our 
attention, as it should, as a matter of justice, and I am very 
proud to join in the fight that Senator Schumer has so 
courageously waged over many, many years and thank him for 
holding this hearing.
    Senator Schumer. Thank you, Senator Blumenthal.
    I have a few questions, although I have to say that the 
testimonies of both Leo Bretholz and Renee Firestone speak for 
themselves, and I will hope all of my colleagues can read it 
because that says it all, and I thank the two of you 
particularly for your courage as well as the other witnesses.
    I want to ask you, Mr. Bretholz, has SNCF ever reached out 
to you in any meaningful way?
    Mr. Bretholz. No.
    Senator Schumer. And what about some of the efforts SNCF 
made in France? And they have been met somewhat receptively by 
the French Jewish community.
    Mr. Bretholz. I can really not speak for the French Jewish 
community, but the French Jewish community is somewhat 
reluctant to what you call rock the boat, you see, because----
    Senator Schumer. I am sure there is a French expression for 
that that neither of us knows.     [Laughter.]
    Mr. Bretholz. You just heard what happened in Toulouse with 
the killing.
    Senator Schumer. Yes.
    Mr. Bretholz. They are afraid if they would rock the boat, 
there will be more atrocities.
    Senator Schumer. Understood.
    Mr. Bretholz. That is really the issue. They do not want 
to----
    Senator Schumer. That is all too often the mentality in 
some of the European communities. Praise God it is not here in 
America, nor yours.
    OK. I want to ask Delegate Rosenberg--and I first want to 
commend him for his efforts in Maryland.
    Mr. Rosenberg. Thank you.
    Senator Schumer. Now, as SNCF continues to obscure its role 
in the Holocaust, thanks to your legislation in Maryland we are 
going to have the historical record of a true, whole account of 
their records from that time. Are they planning to comply with 
your legislation, do you believe?
    Mr. Rosenberg. Well, we do not know for sure. They have 
submitted a bid for the contract in Maryland, and they have 
submitted information. The State archivist, under our law, will 
determine whether they have complied, whether they have given 
the relevant information, and we expect to know that within the 
month.
    Senator Schumer. Thank you.
    And for you, Professor Swaine, as you know, Congress 
successfully passed amendments to the FSIA in the past. For 
example, we amended the FSIA to allow civil suits by U.S. 
victims of terrorism against designated state sponsors of 
terrorism. Additionally, we enacted legislation enabling those 
held hostage in the U.S. Embassy in Iran to bring suit in U.S. 
court.
    Did the Congress have the authority to enable terror 
victims and hostages to sue? And does Congress now have the 
authority to pass a narrow amendment to the FSIA as seen in the 
Rail Justice Act?
    Mr. Swaine. Thank you, Senator Schumer. Congress 
undoubtedly has the authority as a matter of our domestic law. 
There is no question that under the Constitution Congress can 
do this. The issue that I think is worth examining in light of 
the values that Congress has previously expressed is how to 
make changes to the law compatible with international law and 
with our international interests.
    Congress has revised the FSIA to, as you say, expand the 
possibility of immunity--the possibility of liability for state 
entities that would otherwise consider themselves immune. Those 
have typically been very narrowly drawn, not unlike this 
legislation, but without focus on particular states or 
entities, rather on classes of conduct in general. For example, 
the terrorism measure focus has an administrative component to 
it. States have to be designated as ``sponsors of terrorism,'' 
and there are other limits in it as well, including limitations 
based upon nationality or other identity of the plaintiffs.
    So Congress has in the past had sometimes internationally 
controversial but well-considered changes to the FSIA, and my 
point is simply to urge the same kind of focused attention to 
these issues.
    Senator Schumer. All right. Great. Thank you, Professor 
Swaine.
    Ms. Firestone, I want to thank you for being here and 
standing up for what you believe in so strongly, not only on 
behalf of yourself but other survivors. If the legislation is 
passed, what do you hope and expect to happen in court if the 
surviving European insurance companies are sued?
    Ms. Firestone. Mr. Schumer, I do not think I will live long 
enough to finish a court session about this insurance. What I 
want and what most survivors want, we do not want to die as 
second-class citizens in this country, like my parents died 
somewhere else. That is the only reason we are fighting for 
this. We want to have the same rights to go to court and claim 
our issues like any other American.
    Senator Schumer. And you could not be more on target in 
asking for that. You are entitled to it.
    Ms. Firestone. So I hope you will fight, you will vote.
    Senator Schumer. We will do our best, of course.
    Now, to Ambassador Bindenagel, one of the criticisms that 
Ms. Firestone and others have made about the ICHEIC process is 
that the list of names that the companies use were not made 
available and accessible to the survivors. Can you address this 
issue and also explain where the list came from, whether they 
were ever audited by someone outside of ICHEIC?
    Mr. Bindenagel. In fact, Senator, thank you very much for 
that question. It is a very, very important question. The 
550,000 names actually were compiled through many ways, and I 
will find here in 1 second where they were. There is a website 
at the Yad Vashem that has those names. Those names were 
compiled in the first instance by taking names of Jewish 
citizens in all of the countries and matching them against the 
lists of the companies. That is the basic understanding of how 
that list was created, and the 550,000 names were there. That 
does not mean they all had policies, but it did mean that some 
of those Jewish citizens who are named had policies. They were 
checked against the companies. It was overseen by several other 
organizations in the process of making sure that that was a 
legitimate list.
    But, again, it was not everybody that had a policy but, 
rather, the list of people that could potentially have had 
policies.
    Senator Schumer. What could be done to make it better and 
more complete?
    Mr. Bindenagel. One of the things that would be very 
important--the information is really very complete as far as 
the historical record is that the claimants still have the 
opportunity to take that list--it is still public knowledge; it 
is on the website at Yad Vashem; it can be seen--and clamaints 
can still make a claim. We never closed off the claims process. 
When I checked, the companies have continued to keep their 
process open. If anything, there should be oversight of that 
process. We should look at the reports that come out of the 
insurance association. How many of the last 219 inquiries were 
addressed, so that there would be an interaction with Holocaust 
survivors and heirs? They would have an opportunity to say, 
yes, these claims are still being processed, and also could 
work with the Holocaust Claims Processing Office in New York. 
The Holocaust Claims Processing Office has been very helpful in 
doing research that has been necessary for those claims.
    Senator Schumer. Well, again, I thank you. We have a little 
bit of difference of opinion here for sure.
    Mr. Bindenagel. Yes.
    Senator Schumer. But I want to thank our first witnesses. 
We have another vote. Do you have any questions, Senator 
Blumenthal?
    Senator Blumenthal. I want to again express my 
appreciation. Ambassador, is it your feeling that SNCF has been 
held adequately accountable?
    Mr. Bindenagel. I did not deal with the SNCF argument, but 
I will tell you it never came up in the negotiations that we 
did with the Holocaust.
    Senator Blumenthal. But I would believe that in your view 
as someone who has a lot of experience in this area as to 
whether you feel as a matter of equity SNCF has been held 
adequately accountable.
    Mr. Bindenagel. SNCF needs to be held accountable. That is 
my view.
    Senator Blumenthal. And has not been so far.
    Mr. Bindenagel. They need to be accountable.
    Senator Schumer. You can see why he was one of the best 
Attorneys General.
    Mr. Bindenagel. He is very good.
    Senator Blumenthal. Let me turn to Professor Swaine. I do 
not mean to ask an indelicate or undiplomatic question, but are 
you assured that claims for anyone who passes away during the 
pendency of any litigation that may be brought, assuming that 
the Congress does act, will be adequately protected?
    Mr. Swaine. Sir, the claim of decedents, people who inherit 
the claim?
    Senator Blumenthal. Correct.
    Mr. Swaine. I am not assured of that. That would be an 
issue that would be presumably adjudicated in U.S. courts were 
this bill to pass.
    Senator Blumenthal. Can we do something to assure that 
those interests are protected as part of what the Congress 
might do?
    Mr. Swaine. Congress might attempt to address that to a 
degree that it has not previously. There are a host of domestic 
litigation issues connected with the bill that I did not 
address in my testimony, including the difficulty conceivably 
of recovering. One of the issues that is frequently faced in 
these actions is enforcing the judgments and simply exposing 
any state entity to a suit does not guarantee the 
enforceability of any judgment--which I think is in the past 
one of the reasons why diplomatic efforts have sometimes been 
preferred, because they are often a surer way of getting a 
foreign entity to contribute its assets to reparations than 
domestic litigation.
    Senator Blumenthal. I would be interested in talking to you 
and others about those secondary issues that may arise. We do 
have another vote. I apologize that I am going to have to 
leave.
    Senator Schumer. We are going to have to close the hearing 
because of the other vote. It has been great. I would just like 
the survivors--there are many survivors here who have come to 
witness. Would you please just rise so we can acknowledge you 
and thank you?
    [Applause.]
    Senator Schumer. Thank you. I thank all of the witnesses 
and all of those who came. Again, we are sorry for the cramped 
conditions, but the record will be open for a week for people 
to submit written testimony.
    With that, the hearing is adjourned.
    [Whereupon, at 3:53 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
